<html>
<title> - NOMINATIONS OF: ALPHONSO R. JACKSON, LINDA MYSLIWY CONLIN, AND RHONDA N. KEENUM</title>
<body><pre>[Senate Hearing 108-857]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-857

 
                            NOMINATIONS OF:
               ALPHONSO R. JACKSON, LINDA MYSLIWY CONLIN,
                          AND RHONDA N. KEENUM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                            NOMINATIONS OF:

    alphonso r. jackson, of texas, to be the secretary of the u.s. 
              department of housing and urban development

                               __________

  linda mysliwy conlin, of new jersey, to be a member of the board of 
        directors of the export-import bank of the united states

                               __________

rhonda n. keenum, of mississippi, to be assistant secretary of commerce 
   and director general of the united states and foreign commercial 
                                service

                               __________

                           FEBRUARY 26, 2004

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


      Available at: http: //www.access.gpo.gov /congress /senate/
                            senate05sh.html


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-100                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  RICHARD C. SHELBY, Alabama, Chairman

ROBERT F. BENNETT, Utah              PAUL S. SARBANES, Maryland
WAYNE ALLARD, Colorado               CHRISTOPHER J. DODD, Connecticut
MICHAEL B. ENZI, Wyoming             TIM JOHNSON, South Dakota
CHUCK HAGEL, Nebraska                JACK REED, Rhode Island
RICK SANTORUM, Pennsylvania          CHARLES E. SCHUMER, New York
JIM BUNNING, Kentucky                EVAN BAYH, Indiana
MIKE CRAPO, Idaho                    ZELL MILLER, Georgia
JOHN E. SUNUNU, New Hampshire        THOMAS R. CARPER, Delaware
ELIZABETH DOLE, North Carolina       DEBBIE STABENOW, Michigan
LINCOLN D. CHAFEE, Rhode Island      JON S. CORZINE, New Jersey

             Kathleen L. Casey, Staff Director and Counsel

     Steven B. Harris, Democratic Staff Director and Chief Counsel

             Maurice A. Perkins, Professional Staff Member

              Mark A. Calabria, Senior Professional Staff

             Martin J. Gruenberg, Democratic Senior Counsel

             Jonathan Miller, Democratic Professional Staff

               Jennifer Fogel-Bublick, Democratic Counsel

                     Patience R. Singleton, Counsel

   Joseph R. Kolinski, Chief Clerk and Computer Systems Administrator

                       George E. Whittle, Editor

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                      THURSDAY, FEBRUARY 26, 2004

                                                                   Page

Opening statement of Chairman Shelby.............................     1

Opening statements, comments, or prepared statements of:
    Senator Sarbanes.............................................     5
    Senator Allard...............................................     7
    Senator Carper...............................................    17
    Senator Reed.................................................    36
    Senator Corzine..............................................    37

                               WITNESSES

Kit Bond, a U.S. Senator from the State of Missouri..............     2
Kay Bailey Hucthison, a U.S. Senator from the State of Texas.....     3
John Cornyn, a U.S. Senator from the State of Texas..............     4
Thad Cochran, a U.S. Senator from the State of Mississippi.......     4
Roger F. Wicker, a U.S. Representative in Congress from the State 
  of
  Mississippi....................................................     5

                                NOMINEES

Alphonso R. Jackson, of Texas, to be Secretary of the U.S. 
  Department of Housing and Urban Development....................     8
    Biographical sketch of nominee...............................    39
Linda Mysliwy Conlin, of New Jersey, to be a Member of the Board 
  of Directors of the Export-Import Bank of the United States....    24
    Prepared statement...........................................    37
    Biographical sketch of nominee...............................    46
Rhonda N. Keenum, of Mississippi, to be Assistant Secretary of 
  Commerce and Director General of the United States and Foreign 
  Commercial Service.............................................    26
    Biograhpical sketch of nominee...............................    52

              Additional Material Supplied for the Record

Letter to Chairman Richard C. Shelby from Edmund B. Rice, 
  President, Coalition for Employment through Exports, Inc. dated 
  February 25, 2004..............................................    55

                                 (iii)


                            NOMINATIONS OF:

                     ALPHONSO R. JACKSON, OF TEXAS,

                    TO BE THE SECRETARY OF THE U.S.

              DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

                  LINDA MYSLIWY CONLIN, OF NEW JERSEY,

              TO BE A MEMBER OF THE BOARD OF DIRECTORS OF

              THE EXPORT-IMPORT BANK OF THE UNITED STATES

                   RHONDA N. KEENUM, OF MISSISSIPPI,

               TO BE ASSISTANT SECRETARY OF COMMERCE AND

                 DIRECTOR GENERAL OF THE UNITED STATES

                     AND FOREIGN COMMERCIAL SERVICE

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2004

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Committee met at 10:04 a.m., in room SD-538, Dirksen 
Senate Office Building, Senator Richard C. Shelby (Chairman of 
the Committee) presiding.

        OPENING STATEMENT OF CHAIRMAN RICHARD C. SHELBY

    Chairman Shelby. The hearing will come to order.
    We have several nominees to consider this morning. I 
appreciate the willingness of the nominees to appear before the 
Committee. We will take them in two panels. First, the 
Committee will hear from Alphonso Jackson. Mr. Jackson is 
currently serving as Acting Secretary for the Department of 
Housing and Urban Development, which is also the position he 
has been nominated to fill. Previously, he served as Deputy 
Secretary for the Department of Housing and Urban Development.
    Mr. Jackson, if confirmed, will also be the first HUD 
Secretary with a working background in public housing. He 
served as CEO and President of the Dallas, Texas, Housing 
Authority and also as the Director of the Department of Public 
and Assisted Housing here in Washington, DC. I will also note 
that he served as a Member of the National Commission on 
Severely Distressed Public Housing.
    Our second panel will consist of Linda Mysliwy Conlin and 
Rhonda Keenum. Ms. Conlin has been nominated to be a Member of 
the Board of Directors of the Export-Import Bank of the United 
States. Ms. Conlin currently serves as the Assistant Secretary 
for Trade Development at the Department of Commerce.
    The Ex-Im Bank is the principal U.S. Government entity for 
financing the export of U.S. goods and services, and at the 
outset I might add this is a special month for the bank, as it 
celebrates its 70th year anniversary. As an independent U.S. 
Government agency, Ex-Im assumes credit and country risks that 
the private sector is unable or unwilling to accept. Prior to 
her appointment at the Department of Commerce, Ms. Conlin 
served as the Executive Director of the Office of Travel and 
Tourism for the New Jersey Commerce and Economic Growth 
Commission.
    Also, on our second panel is Rhonda N. Keenum, nominated to 
be Assistant Secretary of Commerce and Director General of the 
United States and Foreign Commercial Service. Most recently, 
Ms. Keenum held the position of Senior Vice President at 
Edelman Public Relations.
    Do you have an opening statement, Senator Sarbanes?
    Senator Sarbanes. Well, Mr. Chairman, being appropriately 
intimidate by the presence of so many of my colleagues at the 
witness table----
    [Laughter.]
    --bolstered also by Congressman Wicker. If I could give my 
statement after they have finished and before----
    Chairman Shelby. We will do that. Will everybody agree to 
that?
    Senator Sarbanes. Yes.
    Chairman Shelby. We will start with Senator Bond.

                     STATEMENT OF KIT BOND

           A U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Mr. Chairman, Members of the Committee, and 
with apologies to my colleagues, I appreciate your allowing me 
to go first. Senator Mikulski and I are holding hearings right 
now on the VA-HUD budget.
    Chairman Shelby. A Committee that I belong on, too.
    Senator Bond. Well, that is all right. We will cover for 
you, if you will cover for me, Mr. Chairman. But I am here for 
the very special privilege of joining in the presentation for 
Alphonso Jackson to the Committee as the nominee to be 
Secretary of Housing and Urban Development. I was blessed with 
this privilege 3 years ago when he appeared before the 
Committee to be Deputy Secretary, and I am delighted that the 
President has made such an outstanding choice.
    I do not envy Al in this job. This might be considered a 
hazardous duty case where his willingness to take such a job 
might be evidence that should disqualify him.
    [Laughter.]
    But since HUD needs a brave leader, we should accept his 
sacrifice for the benefit of our Nation's public. This is a 
department deeply troubled with problems that plague almost 
every major program. Al has inherited, from OMB, a budget 
request for 2005 that undermines the financial viability and 
integrity of a number of important housing programs, including 
Section 8 and FHA. As a result, I am reminded of the Greek myth 
of Sisyphus, who is fated to continually roll a bolder to the 
top of the hill only to see it roll to the bottom again.
    If anyone is going to overcome the Sisyphian task of 
reforming HUD, that person is Al Jackson. I should know. I have 
known and worked with Al for more than 30 years, since I first 
ran for Governor of Missouri. Now, people in Texas claim him, 
but he holds a law degree from Washington University in St. 
Louis and has tackled successfully many of the toughest jobs in 
the City of St. Louis, from Director of Public Safety to 
Executive Director of the St. Louis Housing Authority, in 
addition to serving in both Washington and Dallas.
    As we all know, Al has served as Deputy Secretary at HUD, 
and as Chairman of the Subcommittee funding it, I have worked 
with the deputy on a myriad of challenges, most of them bona 
fide headaches, and we need a strong leader with his experience 
to try to reform this outfit and make it as efficient as 
possible on behalf of those, some most desperate who need 
affordable housing.
    Al is smart, dedicated, and creative. He represents a 
powerful combination of experience, knowledge, and ability. He 
has taken on the management task. As you indicated, Mr. 
Chairman, he knows the headaches that comes with running a 
housing authority. It is a little bit masochistic, but in Al's 
case, it is because he is someone who is deeply and profoundly 
committed to making all of our communities much better places 
to live. If anyone can make HUD work better, it is Al. It is 
with great pleasure that I wholeheartedly recommend Al to you 
and urge his speedy confirmation by the Senate.
    Chairman Shelby. Senator Hutchison.

               STATEMENT OF KAY BAILEY HUTCHINSON

             A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Hutchison. Mr. Chairman, after hearing a 
description of the job, I am expecting Alphonso to walk out the 
back door right about now.
    Seriously, I am so pleased to be here to support Alphonso 
Jackson. We have a rare opportunity to confirm someone to the 
top job who has served in so many of the jobs that this great 
responsibility entails. He has been there on the ground floor 
with housing agencies at the local level. He has been the 
Deputy Secretary, so he knows this agency. It will be a 
seamless transition to take over the reins of the office, and 
he deserves to be able to do that.
    He has had, also, in addition to the experience that was 
already mentioned by Senator Bond, recognition for his 
leadership in the community. He has served on the boards of the 
National Commission on America's Urban Families, the Dallas 
Citizens Council, the U.S. Chamber of Commerce and the Boy 
Scouts of America. He has gotten the National Boys and Girls 
Clubs of America Chairman's Award, and he was named an Aspin 
Fellow by the Aspin Institute.
    I worked with Alphonso when he was in Texas, both as the 
Head of the Housing Authority of the City of Dallas and as 
President of American Electric Power of Texas, a utility 
company in Austin. He has had business experience, and he has 
been in public service.
    I have found him to be innovative and creative. There is 
nothing he will not tackle. He will put people together in the 
same room who have not spoken to each other in years, and he 
will try to make them do what is good for the bigger community 
interests. So, I cannot think of a better person for this job, 
one who has the best experience and also can hit the ground 
running, and I hope that he will have a speedy confirmation.
    Thank you.
    Chairman Shelby. Senator Cornyn.

                    STATEMENT OF JOHN CORNYN

             A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cornyn. Thank you, Chairman Shelby. It is good to 
be with you and the rest of the Committee on behalf of this 
good man and his wonderful wife, Marcia. As the third Senator 
to speak on behalf of his nomination, I know what I am supposed 
to do, but I have just got to try to make it interesting, which 
is tough after you have already heard the nitty-gritty.
    But I am advised on good authority that, while you may 
think that, based on what you have heard so far, Alphonso 
Jackson is a candidate for canonization, he is not a very good 
golfer----
    [Laughter.]
    --but he is a good man and highly qualified for this 
position. He will bring all of the great background that he has 
had in housing to this job, and a big vision to tackle the big 
challenges that we have already heard something about.
    Like many Federal agencies, HUD's job is to, the task he 
has before him is to improve the way that HUD administers its 
various programs and improve the management at that agency. Of 
course, owning a home is the cornerstone of the American Dream, 
and the Department of Housing and Urban Development plays a 
crucial role in expanding homeownership opportunities for low-
income families and many first-time homebuyers each year.
    HUD, of course, encourages homeownership in a number of 
ways, including rental assistance and construction grants, 
Section 8 vouchers, Section 32 public housing homeownership 
program, the home investment partnerships, as well as ongoing 
efforts to end chronic homelessness. As a result of HUD's 
effort and the improving economy and low interest rates, 
homeownership in America is at an all-time high of about 68 
percent.
    So let me just say, in conclusion, how honored I am to be 
here before the Committee today, and particularly in support of 
a good man like Alphonso Jackson and someone who will do an 
outstanding job when confirmed to this position.
    Thank you.
    Chairman Shelby. Senator Cochran.

                   STATEMENT OF THAD COCHRAN

          A U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Cochran. Mr. Chairman, thank you very much for the 
opportunity to be here today. I am pleased to recommend to the 
Committee for confirmation Rhonda Keenum as Assistant Secretary 
of Commerce and Director General of the United States and 
Foreign Commercial Service.
    I have known this nominee for 15 years, and in the spirit 
of full disclosure, I must tell you that she is a close 
personal friend of mine. In addition, her husband is my chief 
of staff. But I have come to know her over the years as a very 
talented marketing and public relations manager with skills 
that I know will enable her to do a superb job in this 
important office. She has a strong sense of responsibility and 
accountability. Her proven management capabilities will be very 
useful as she works to discharge the responsibilities of this 
office.
    I can personally attest to her good moral character, and 
her capacity for hard work, and her willingness to expend 
whatever amount of energy is required to accomplish a goal. I 
hope you can approve the nomination expeditiously. The 
Department of Commerce will benefit greatly from her immediate 
assumption of the duties of this office.
    Chairman Shelby. Thank you, Senator.
    Congressman Wicker.

                  STATEMENT OF ROGER F. WICKER

               A U.S. REPRESENTATIVE IN CONGRESS

                 FROM THE STATE OF MISSISSIPPI

    Mr. Wicker. Thank you, Mr. Chairman, Ranking Member 
Sarbanes, and distinguished Members of the Committee, it is my 
honor and privilege to be here today, and I appreciate you 
accommodating Senator Cochran and me on our schedule. I will 
simply echo what Senator Cochran has said about Rhonda Keenum, 
and urge her swift confirmation.
    I have known Rhonda for 10 years. She served as my 
Administrative Assistant in the U.S. House of Representatives. 
And I would simply say that she approaches every task with a 
great deal of energy, with a keen intellect, and perhaps just 
as important as anything, she is a people person. People like 
Rhonda Keenum. They like to work for her. They like to work 
with her, and I think that will be one of her great strengths 
for the Department of Commerce.
    You are going to like working with her as a representative 
of the Administration and in your dealings with the Department 
of Commerce, and I am very honored to join Senator Cochran in 
giving her my highest recommendation.
    Chairman Shelby. Thank you very much, Senator Cochran. 
Thank you for your appearance.
    Chairman Shelby. Senator Sarbanes, do you want to pick up 
with your opening statement?

             STATEMENT OF SENATOR PAUL S. SARBANES

    Senator Sarbanes. Mr. Chairman, I am pleased to join with 
you in holding these nomination hearings today and providing a 
timely consideration for the nominees. I will withhold my 
comments with respect to Ms. Conlin and Ms. Keenum because they 
are coming on in the second panel, as I understand it. We are 
going to have Mr. Jackson in the first panel.
    Let me simply say that I think that the position for which 
Mr. Jackson has been nominated, Secretary of the Department of 
Housing and Urban Development, may well be one of the most 
challenging in the President's Cabinet. The responsibilities 
are very broad, overseeing the Nation's housing assistance 
programs, community development initiatives, Federal Housing 
Administration--to mention only a few.
    HUD is charged with the task of providing decent and safe 
homes to millions of Americans. Regrettably, over the years, it 
has proven to be a very difficult department to manage. For 
many years, HUD has been considered troubled by the GAO in its 
surveys. And the Office of Management and Budget, the OMB, 
recently indicated that HUD must improve its performance in 
order to be considered effective. So overcoming this report 
card is of course a major challenge that faces any HUD 
Secretary.
    Through the Federal Housing Administration, the Public 
Housing Program, the Section 8 vouchers, the HOME program and 
others, HUD ensures that more Americans have affordable places 
to call home. Through the Community Development Block Grant, 
the HOPE VI, the Rural Housing and the Economic Development 
Program, HUD helps transforms neighborhoods and communities 
into places of hope.
    Regrettably, HUD budgets, under this administration, 
indeed, under past administrations, have been inadequate, and 
this year is no exception. The HUD budget submitted by the 
administration originally formulated by HUD, and then of course 
it passes through the Office of Management and Budget, and I 
want to be clear on that point, underfunds the voucher program 
by over a billion dollars, a cut which could lead to the loss 
of housing for approximately 250,000 low-income families.
    The budget terminates the highly successful HOPE VI 
program, as well as Rural Housing, Economic Development and 
Brownfields. The HOPE VI program, of course, has been used by 
many communities to transform not only specifically the 
housing, but neighborhoods as well, and in the judgment of many 
has been a very successful initiative. Once again, the public 
housing is underfunded, threatening the Federal investment in 
the housing stock, as well as the homes of millions of 
Americans.
    I think as long as we have this housing stock, we need to 
maintain and preserve it. And so one of the tasks that I think 
confront any Secretary is the fight for adequate funding for 
these programs. Make sure the programs work right and then 
fight for funding in order to carry the programs out. So there 
is this double challenge of being both an effective manager of 
the operations at HUD and also to be an advocate for adequate 
resources in order to carry the programs forward.
    Finally, let me just make reference to the fact that there 
have, from time to time, been criticisms of the procurement and 
grant competitions at HUD. It is extremely important, of 
course, that the Department operate and be perceived to operate 
in a fair manner outside of political considerations or 
calculations, and that those who enter these competitions or 
seek to gain procurement contracts are assured of the validity 
of the process.
    I think these are all very substantial challenges, and as 
our colleagues at the table indicated, this is a job of major 
importance, and the problems, some that I have enumerated here, 
are of significant dimensions. So, having set that stage, I 
think I will wait and have some questions for Mr. Jackson.
    Chairman Shelby. Senator Allard.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Mr. Chairman. I appreciate you 
convening this hearing to review the nominations of Mr. 
Jackson, Ms. Conlin, and Ms. Keenum. I appreciate this 
opportunity to hear from the nominees. In particular, I am 
interested to hear from Mr. Jackson. As Chairman of the 
Subcommittee on Housing and Transportation, I have followed the 
Department of Housing and Urban Development very closely for a 
number of years. And while the Department, as a whole, has been 
removed from the General Accounting Office's High Risk List, 
the GAO still rates a number of HUD's programs as highly 
susceptible to waste, fraud, abuse, and mismanagement, and 
clearly this must change.
    I was amused to hear that Senator Bond also had a lot of 
the same observations that I just enumerated on. He was deeply 
troubled and was actually calling for reform. I appreciate the 
recent focus at HUD on homeownership, and particularly the 
focus on closing the minority homeownership gap. I am also 
supportive of efforts to devolve some of HUD's functions and 
eliminate layers of bureaucracy. I am interested in learning 
what initiatives you, Mr. Jackson, wish to continue and which 
you intend to change. Let me be clear, though, I believe HUD 
must focus on its core mission to provide decent, safe, 
sanitary, and affordable housing.
    Good leadership involves a clear vision. The HUD Secretary 
must have a clear set of performance goals in mind, as well as 
ways in which the Department and Congress can measure progress 
in achieving those goals. Also, it is critical to consider the 
long-term sustainability of any progress made at HUD. The 
Government Performance and Results Act, or the Results Act, is 
a powerful tool toward that end. You have heard me ask 
questions in regard to that from time to time of various 
individuals who come from HUD to testify before the Congress.
    I would encourage Mr. Jackson, as well as all of today's 
nominees, to become familiar with their Agency's strategic 
plan, annual performance plans, annual accountability reports 
and financial statements. If properly utilized, they can help 
you achieve success in your respective agencies.
    Mr. Chairman, thank you, and I want to thank the nominees 
for appearing before the Committee, and I look forward to 
hearing from you. I will have more during our question and 
answer period.
    Chairman Shelby. Mr. Jackson, before your testimony, would 
you stand and be sworn. Hold up your right hand.
    Do you swear or affirm that the testimony that you are 
about to give is the truth, the whole truth, and nothing but 
the truth so help you God?
    Mr. Jackson. I do.
    Chairman Shelby. Do you agree to appear and testify before 
any duly-constituted committee of the Senate?
    Mr. Jackson. Yes, sir.
    Chairman Shelby. Thank you. Mr. Jackson, your written 
statement will be made part of the record. You proceed as you 
wish. Welcome to the Committee. You have been here before.
    [Laughter.]
    But I am sure as Secretary you will be here a lot.
    [Laughter.]

            STATEMENT ALPHONSO R. JACKSON, OF TEXAS,

           TO BE THE SECRETARY OF THE U.S. DEPARTMENT

                OF HOUSING AND URBAN DEVELOPMENT

    Mr. Jackson. Mr. Chairman, Senator Sarbanes, and Members of 
the Committee, thank you for the opportunity to appear before 
you today. I would also like to thank Senator Bond, Senator 
Hutchison, and Senator Cornyn for their kind introduction.
    With your indulgence, Mr. Chairman, I would like to 
introduce my wife, Marcia Jackson.
    Chairman Shelby. You may proceed. Welcome.
    Mr. Jackson. And I can assure you----
    Chairman Shelby. Have her stand up. The others did not see 
her.
    [Laughter.]
    Thank you.
    [Applause.]
    Mr. Jackson. And I can assure you I would not be here 
without her support and especially her enduring patience.
    Let me begin by expressing my profound gratitude to 
President Bush for his friendship and for his confidence in 
nominating me as the next Secretary of Housing and Urban 
Development. In my mind, the highest honor that can be bestowed 
upon an individual is to be asked to serve their country.
    I am delighted that President Bush has asked me to continue 
my service to a Department to which I have great pride and 
great expectations. HUD's mission calls upon us to provide new 
opportunities and new tools for every American who seeks a 
better quality of life. With help and encouragement from the 
Department family across the Nation, we can lift them toward 
prosperity. And I will tell you today that I understand the 
journey in a very personal way because it is my own.
    I come from a family of very humble means. I am the last of 
12 children born to Arthur and Henrietta Jackson. We never had 
a lot of money growing up in Texas, and my father juggled three 
jobs to keep food on the table. But our household was never 
short on love. My siblings and I were blessed with devoted 
parents who made certain their children were well-prepared to 
face the world. They stressed again and again that with 
education and strong work ethics, we could accomplish anything 
we chose to tackle. If my mother and my father were with us 
today, they would no doubt be proud of the path that I have 
chosen.
    I have been guided through my life by the belief that the 
best way to serve our neighbors in need is to empower them to 
pursue their dreams. As a college student in 1965, I traveled 
to Alabama to help register black voters during the defining 
days of the civil rights movement. These were violent times, 
and I witnessed vicious acts of inhumanity. But I also saw the 
hope of a better tomorrow which was a strong and motivating 
force for me.
    Before coming to HUD, as you have heard, I ran Public 
Housing Authorities in St. Louis, Washington, DC, and Dallas. 
We faced the same problems that your community deals with 
today. This gave me insight in to the needs of Public Housing 
Authorities and how HUD related to them. Through my 
chairmanship of two community development block grant agencies, 
I gained the practical understanding of ways in which HUD works 
in partnership with State and local Governments to rejuvenate 
American cities. I emerged with a strong idea about how HUD 
could work better for families and communities.
    My experiences as a public servant are balanced by my work 
in the private sector. There, I learned the importance of 
effective management and a successful enterprise. Whether in 
Government or in business, sound management and excellent 
program performance are critical to an organization's success.
    Committee Members, as you have just stated, I am acutely 
aware of HUD's troubled past. Through its history, the 
Department has been plagued by management challenges that left 
it vulnerable to waste, fraud, and abuse. Early in the 
Administration, the President made it clear that restoring 
credibility and accountability to HUD must be our top priority. 
And so I worked alongside of Secretary Mel Martinez to instill 
a new commitment to real results in HUD's program areas and a 
new commitment to the highest ethical standards in our 
workforce.
    I have visited 30 of HUD's field offices in virtually every 
State represented by the Committee. At each office, I met with 
employees to get their thoughts on how HUD's leadership could 
help them better serve the communities in which they work. 
After hearing their suggestions, I undertook a strategic 
realignment of HUD's entire field office structure. Decisions 
that used to be made in Washington have been delegated to our 
regional and local offices. Today, they are making decisions 
for themselves that used to get lost in a layer of bureaucracy 
at headquarters.
    We are striving to make HUD work better and smarter than it 
has in years. I am personally proud that we are helping more 
people than ever realize the American Dream. Homeownership last 
year climbed to an all-time high of 68.3 percent, and now, for 
the first time ever, more than half of all minority households 
owned a home in their community.
    As you know, increasing the number of homeowners, and 
minority homeowners in particular, is one of President Bush's 
domestic priorities and a personal priority of mine.
    I want to thank the Chairman and the Committee Members for 
their leadership in enacting the American Dream Downpayment Act 
last year. Our shared commitment will help 40,000 families 
annually become homeowners. HUD continues its work to simplify 
the process of buying a home and making it less costly for 
consumers. The President has proposed a tax credit that would 
spur the creation of affordable homes in communities where they 
are desperately needed today. And we offer families new 
opportunity to become self-sufficient by helping them make the 
move from assisted housing to homeownership.
    With your support, and the support of HUD partners at the 
grassroots level in the industry, I want to build upon these 
achievements. It is within our power to solve the challenges of 
housing affordability, availability, and community renewal.
    Mr. Chairman, as you can see, I feel very passionate about 
the issues of housing and community development. It lies at the 
heart of HUD's mission, but more importantly, I am passionate 
about the people that our program touches, the young families 
taking out their first mortgage, the homeless person climbing 
the ladder of self-sufficiency, the single mother moving out of 
public housing into her own home, the senior citizen living in 
dignity in retirement, and the child playing safely in a home 
free of toxic lead.
    If confirmed, I intend to remain a forceful advocate for 
those who turn to HUD for help.
    The Department of Housing and Urban Development holds 
tremendous promise as an agency of empowerment. I look forward 
to working with Members on both sides of the aisle to meet the 
challenges ahead of us, as we strengthen HUD's ability to carry 
out its mission and to help fulfill the Nation's housing 
agency's promise to all of Americans.
    Thank you, Mr. Chairman and Committee Members.
    Chairman Shelby. Thank you.
    Mr. Jackson, one of your responsibilities as the Deputy 
Secretary, which you are currently or have been, is to oversee 
personnel and hiring practices. In 2000, Congress specifically 
exempted HUD's Manufacturing Housing Program from the 
Department's employee ceiling. This was done because we felt 
that staff reductions had been damaging to the Manufactured 
Housing Program.
    Can you tell the Committee this morning what has been done 
to implement this separate hiring procedure for the 
Manufactured Housing Program, how many additional staff have 
been hired since the passage of the 2000 Act?
    Mr. Jackson. The latter part first, Mr. Chairman.
    Chairman Shelby. Go ahead.
    Mr. Jackson. I cannot tell you the number now, but I will 
surely get you that.
    Chairman Shelby. Will you furnish this for the record.
    Mr. Jackson. Yes, I will.
    I can tell you that as of the last year we have made a 
tremendous progress to fulfill the commitment that was made by 
Congress to do that. Initially, I must tell you we had so many 
problems facing us to correct many of the audits, many of the 
things that had not been done that Secretary Martinez and I 
concentrated on trying to resolve some of the serious issues 
that was just delineated by Senator Bond and Senator Allard to 
cure those problems.
    I think we have done a very excellent job of doing those, 
and I can assure you right now that regarding Manufactured 
Housing, it is absolutely imperative that we get that started 
to the point that you wanted it, both for myself and for 
Assistant Secretary Weicher because I informed him almost 2 
months ago that we must begin to do that in a very systematic 
manner. I will not sit here and tell you that 2 years ago we 
did everything we could because that, in essence, would not be 
the truth, but it is a top priority with us at this time, and I 
can assure that 2 months from the day I appear before you it 
will be done.
    Chairman Shelby. One of the very important insights I 
believe you bring to the position of Secretary is your service 
on the Commission for Severely Distressed Public Housing. Out 
of this Commission's report came the HOPE VI Public Housing 
Revitalization program. Do you believe the HOPE VI program has 
fulfilled its mission in addressing the most severely 
distressed public housing?
    Mr. Jackson. I am in a very unique situation, and I have to 
confess to the Senators today that I have a bias in the sense 
that I was one of the four people who spent one night and 
basically helped write up the legislation that eventually 
became the HOPE VI legislation as we know it. I must tell you 
that I think we have to have levity to this, that after a 
second glass of wine, I came to name it Housing Opportunity for 
People Everywhere is what HOPE stands for.
    I believe that when we were empowered as a commission, we 
came to the conclusion that we had about 89,000 severely 
distressed public housing units in this country. It really had 
to be addressed, and we could no longer permit people to live 
in the squalor or in those huge monstrosity of buildings that 
they had done for almost 30 or 40 years.
    What we said would be the ideal circumstances would be to 
integrate low- and moderate-income people, both socially and 
economically into the fabric of this country, and that is what 
we wanted to do with the HOPE VI program. I believe that the 
HOPE VI program, as stated a few minutes ago by Senator Bond, 
is a great program. My concern with the program is that we have 
allocated to date, $5 billion. Today in the pipeline, we still 
have over $3 billion unspent. The program has been in effect 
now for almost 10 years.
    But the other thing that I think is so important, Mr. 
Chairman, is that we have only had about 21 successful HOPE VI 
projects completed out of almost 200 that have been funded in 
the last 10 years.
    Chairman Shelby. What is the problem?
    Mr. Jackson. The problem has been, in many cases, the 
Housing Authorities have not necessarily fulfilled their 
obligations. We have given them money, through the HOPE VI 
grants, with the understanding that they would leverage those 
monies to develop both socially and economically viable 
communities.
    Chairman Shelby. How do you square that? How are you going 
to make that work?
    Mr. Jackson. Well, we are trying right now. We have sent 
out, and we are getting great response in the last year and a 
half telling them that we were going to recapture the money if 
they did not start moving very quickly on those projects.
    And I must tell you today we have a number of projects that 
are 6 to 7 years old that the cities have begun to move on very 
quickly, but that is what it took. And I thought, when we 
created this program, and I still feel today, that those 20 or 
21 HOPE VI programs that have been done, they have been done 
very well, and they are the model around the country, whether 
it is in Charlotte, whether it is in Dallas, whether it is in 
Philadelphia. They are models.
    But the key becomes do we continue to fund a program that 
has not operated very effectively and very efficiently, and I 
think I have heard on a number of occasions, and even just a 
few minutes ago Senator Allard, when he was talking about HUD, 
alluded to the point, that we have to be very efficient and 
effective because we do not want waste, fraud, and abuse. In 
this case, I think that clearly the program has not operated as 
we expected it, and that does not mean that the program is not 
good. My position is, if the program demonstrates the 
commitment, I think it would be well worth looking at it again.
    Chairman Shelby. President Truman always reminded us the 
buck stopped here. It will stop with you as HUD's Secretary, 
would it not?
    Mr. Jackson. Yes, sir.
    Chairman Shelby. Operation of the FHA General Insurance and 
Special Risk Insurance Fund had been stopped several times last 
year. At least on one occasion, this was relayed to Congress 
too late to do anything about it.
    Do you have any thoughts on avoiding this situation from 
reoccurring?
    Mr. Jackson. Yes. During my conversations with you and a 
number of your colleagues, this question was brought up, and I 
assured you that we will never be in that situation again. We 
have allocated $35 million. But what I will assure you and a 
number of your colleagues, and I will assure you today, that by 
May, if we see there are serious problems in the 2005 budget, 
we will let you know.
    We will not wait until June or July to come before you to 
tell you that at this point we are spending at a faster rate 
than we expected. That has been the problem with us, and I take 
full responsibility at HUD for not informing you much quicker 
and much earlier in this process. You have my word today that 
we will not put the Senate in a bind again to come to the 
situation that you have to fund us on a very quick basis. We 
will give you ample notice.
    Chairman Shelby. Senator Sarbanes.
    Senator Sarbanes. Thank you, Mr. Chairman.
    Mr. Jackson, in mid-2002, HUD reinterpreted its Section 8 
contracts to allow owners of property which had been refinanced 
to opt out of their longstanding affordability restrictions. 
This really was an unexpected decision, given that these 
properties had been refinanced for over 20 years with HUD 
approval. And strong opposition was registered with Secretary 
Martinez, and while he did not retract the decision, HUD did 
not move actively to implement the policy.
    We now understand that HUD is planning to send out guidance 
to field offices asking them to contact all Section 8 owners 
with refinanced properties and underscoring to them their 
option to opt out of the affordability restrictions. The 
National Council of State Housing Finance Agency estimates that 
100,000 affordable units could be affected. It seems to me this 
has very severe implications.
    Could you undertake to review this policy decision and not 
to take actions to implement this reinterpretation until the 
review is fully complete? I think there is a need to do that.
    Mr. Jackson. Senator Sarbanes, I will not comment on the 
actions of Secretary Martinez, but I will say to you today that 
I share your view, and the National Low-Income Housing view, 
that we cannot afford to permit these Section 8 developments on 
a project-based subsidy to be lost because it creates a serious 
problem for us. My position is that we will do everything in 
our power to keep those persons and those landlords within the 
program.
    Senator Sarbanes. Thank you.
    An issue regarding the use of disability funds by HUD has 
come to my attention. Up to 25-percent of the funds provided 
for in the Section 811 program, which provides for housing for 
people with disabilities, may be used for tenant-based rental 
assistance, but we understand that HUD has not issued guidance 
on the use of these funds for this purpose nor monitored this 
aspect of the program.
    Are you aware of these concerns, and what plans are there 
to monitor the use of these funds?
    Mr. Jackson. Senator Sarbanes, I am not aware of that 
specific area, but I will get back to you very quickly with an 
answer as to the approach. My position is, if it has been 
allocated for that purpose, it should be used, but I just 
cannot give you an answer pro or con at this point.
    Senator Sarbanes. Well, if you could look into it and get 
back to us, I would appreciate that.
    Now, I want to call to your attention the views and 
estimates with respect to the fiscal year 2005 budget adopted 
yesterday over on the House side by the Financial Services 
Committee of the House of Representatives. I am going to take a 
moment just to quote from that.

    The fiscal 2005 budget request for Section 8 is $1.6 
billion below the HUD projects are needed to renew all Section 
8 assistance. This could result in the elimination of funding 
for up to 250,000 vouchers. The budget includes legislation of 
block grant, the Section 8 voucher program.

    I am now quoting from the House Committee.

    The main feature of this proposal is elimination of the 
right which Housing Authorities now have to rent to a specified 
number of families and to receive funding to cover the full 
cost of such assistance. Instead, Congress would block grant 
each Housing Authority into a lump-sum amount, which in the 
first year alone is $1.6 billion less than is necessary to 
serve the same number of families now being served nationwide.
    The block grant feature would let funding spiral downwards 
in future years. The result is that Housing Authorities would 
have to make either major reductions in the number of families 
they assist or in the subsidy provided to each family or more 
likely a combination of the two.
    The proposal also eliminated most of the current statutory 
tenant protections, offering Housing Authorities other flexible 
options to implement these deep cuts. Housing Authorities could 
simply cut the subsidy level, an option made possible by the 
Administration's proposal to end the current rules under which 
each voucher holder pays no more than 30 percent of net income 
for a fair market rental unit in their community.
    Housing Authorities could also implement the cuts by moving 
out poor people from the program and replacing them with 
families that are not as poor. This option is made possible by 
the Administration's proposal to eliminate the targeting of 
scarce voucher resources for the most in need.

    Now, this was language the Financial Services Committee on 
the House side adopted, and it obviously is a response to what 
is perceived as potentially or perhaps very substantial changes 
in the voucher program. It seems to me there has been a lot of 
effort in the Congress to move toward vouchers. A lot of my 
colleagues have been very supportive of that. We have moved 
away from a direct provision of governmental housing toward 
vouchers and an effort to interrelate with the private housing 
market. What is your response to this statement?
    What can we do about it? Obviously, we are facing quite a 
pressing problem here. Last year, we had a shortfall on 
vouchers, and we were able in the Congress to come up with 
additional money in order to try to deal with that voucher 
situation, but we are facing it seems here an even more 
pressing situation.
    Mr. Jackson. Senator, three-fourths of our budget basically 
is for assisted housing. If we take the Section 8 program over 
the last 2 years, it has increased by 22 to 23 percent. I want 
to assure you that anyone that is on a Section 8 certificate 
today will not be removed from that Section 8 certificate, but 
we have a turnover of about 8 or 9 percent a year in our 
certificates program. What we have suggested and what we 
believe today is that in that turnover, the process, those 
vouchers and certificates can better be used in a strategic 
manner by addressing what we call today the working poor 
family, and in the process giving them an opportunity.
    From our perspective, the Section 8 program initially was 
created as a transitional program between public housing and 
self-sufficiency or market-rate rental units. I do not believe 
that we can sustain our present increase if we continue as we 
have done over the last 2 years at 23 percent. We had to look 
at ways of addressing the situation. I can tell you, yes, I do 
not think we will ever resolve the problem of having enough 
certificates or vouchers for everyone to use, but I believe 
that the program that we are trying to institute by giving the 
Housing Authorities the flexibility to use the vouchers as they 
so see will increase the utility, rather than decrease the 
utility of the process.
    Let me give you an example of what I mean. Even if we today 
have a family of four in San Francisco, and we go up to 150 
percent of median, it is almost impossible for them to find a 
decent, safe, and sanitary place to live in San Francisco.
    I think with the flexibility that we will give the Housing 
Authorities, it will give them the option to decide whether 
they will go to 160 or 170 percent of median to address the 
need of the family of four, and I think they should have that 
opportunity. I can tell that when I ran the Dallas Housing 
Authority, even with the other two, I would have loved to have 
had the flexibility to utilize the certificates and vouchers to 
best address the needs because I can remember, on a number of 
occasions, the average outstanding voucher was 13 to 14 months 
in Dallas before a person found a place, and in some cases they 
still did not find a decent, safe, and sanitary place to live.
    So, I do think that we are trying to work with the 
industry, and I look forward to working with the industry and 
getting their input to try to best serve those persons most in 
need.
    Senator Sarbanes. Mr. Chairman, I see my time is up. I do 
not want to impose on Senator Allard.
    Chairman Shelby. Thank you.
    Senator Sarbanes. There will be another round. Just let me 
note that the Housing Authority people are telling us across 
the country, aside from the problem of going to a block grant 
and no longer guaranteeing the vouchers, that they are $1.6 
billion short of what they need to sustain existing vouchers. 
They regard it as a shell game. In other words, this 
responsibility is being thrown on them, and there is an 
immediate shortfall in the resources with which to meet this 
responsibility.
    I mean, you have a separate argument, and we may be on 
opposite sides of that one, as a matter of fact, but you would 
have a separate argument if the funding level was completely 
adequate to the existing program, and then you just had to 
address the block-granting aspects of it, but this is 
compounded here because of the shortfall.
    Mr. Jackson. May I answer?
    Chairman Shelby. Yes, sir.
    Mr. Jackson. Senator, I think you are aware, and I am 
aware, that yearly we have returned somewhere between $1.2 
billion and $1.8 billion in Section 8 unused funds to the 
Senate. I think what we are seeing is those unused funds in 
many cases is what we are speaking, in my mind, reference 
today. I think we are funding the Section 8 program at a level 
that I think will address the needs.
    I do believe that it is clear to me that the new proposal 
that you put in place that we funded at a certain level will 
have an effect, and I think we are addressing that at this 
point in time. I do not see, from HUD's perspective, where we 
are anyway denigrating the existing program, the existing 
vouchers and certificates we have already allocated to the 
Housing Authorities around the country.
    Senator Sarbanes. I will pursue it later.
    Chairman Shelby. Thank you. We will have another round.
    Senator Allard, thank you for your patience.
    Senator Allard. Thank you, Mr. Chairman.
    You have heard a lot of discussion this morning about 
accountability with HUD. In fact, accountability has been a 
word that has come up frequently in our hearings in the 
Congress on housing issues and HUD. And I would just like to 
hear, just briefly, what you view as the relationship between 
the Congress and HUD, for example, or the executive branch and 
what you feel are the proper roles for each.
    Mr. Jackson. Senator, I have a very simple answer for that. 
I believe that Article 1, Section 7 says that Congress is the 
appropriators, and our relationship with them is that they 
appropriate the funds that are necessary for us to carry out 
the responsibility that you have given us to carry out, and 
that it is the mission at HUD is to provide decent, safe, and 
sanitary housing. And if we do not carry out that mission, we 
are not carrying out the edicts that you have set us to do.
    Senator Allard. Well, as you know, I agree with your 
efforts. I support getting more people into homeownership, and 
I have carried legislation to see that happen, but I do have 
some concerns about HUD's responsiveness to Members of 
Congress. The most controversial thing that we have facing us 
right now, and I think you are well aware of it, is HUD's RESPA 
proposal, and it has garnered a great deal of attention and 
discussion from Members of Congress. I have a few questions 
about the extent to which you have heard from the public and 
from Members of Congress. If you could answer those briefly, I 
would appreciate it.
    How many comment letters did HUD receive during the comment 
period, and then how many letters did they receive during the 
current OMB review period? Do you have any figures on that?
    Mr. Jackson. We received about 40,000 either letters or e-
mails during the initial period, and since being over at OMB, I 
think we received about 1,200.
    Senator Allard. And then as a part of the regular comment 
period or as other correspondence, how many House and Senate 
Members have contacted HUD regarding the RESPA proposal?
    Mr. Jackson. That, Senator, I could not answer how many 
have contacted.
    Senator Allard. Would it be safe to say a surprisingly 
large number?
    Mr. Jackson. I would say quite a number, yes.
    Senator Allard. And of these comments----
    Senator Sarbanes. Surprisingly, maybe not.
    [Laughter.]
    Senator Allard. And of those comments, were any supportive 
of HUD's specific proposal that is before us now?
    Mr. Jackson. Not to my memory.
    Senator Allard. And how many phone calls and meetings have 
occurred with Members expressing concern about HUD's specific 
proposal?
    Mr. Jackson. I cannot speak in reference to Secretary 
Martinez, but I can speak in reference to me, and I think I 
have had eight or nine.
    Senator Allard. And then the previous Secretary had a 
fairly numerous amount of meetings, I would assume.
    Mr. Jackson. I cannot really answer that. I really cannot 
answer that. I can really answer for myself.
    Senator Allard. Now, since HUD issued its proposed rule, 
how many Congressional hearings have been convened regarding 
RESPA?
    Mr. Jackson. I think one has been convened since--no, no, I 
am sorry. Do you mean since----
    Senator Allard. Yes, since this proposed rule. We have had 
a lot of hearings on RESPA.
    Mr. Jackson. Yes.
    Senator Allard. But since HUD issued its proposed rule, how 
many Congressional hearings have been convened on RESPA in both 
the House and the Senate?
    Mr. Jackson. I am not sure. I think five or six.
    Senator Allard. A number of them at least.
    Mr. Jackson. Right. Yes.
    Senator Allard. And during those hearings, has HUD received 
any feedback from Members in support of its specific proposal?
    Mr. Jackson. Not to my knowledge.
    Senator Allard. Additionally, would it be fair to say that 
very serious concerns have been raised by key authorizers in 
both the House and the Senate?
    Mr. Jackson. Yes.
    Senator Allard. And, would you be able to can you cite any 
instances in which Congressional Members have offered support 
for HUD's specific proposal?
    Mr. Jackson. Not to my knowledge.
    Senator Allard. Yes, I cannot recall any either. I, for 
one, find this situation incredible. In taking on RESPA reform, 
HUD managed to come up with a proposal that was unanimously 
opposed by industry and consumer groups. I could possibly 
understand, though, if HUD believed that there were factors 
which outweighed these concerns and explained its reasoning to 
Congress.
    What I cannot fathom, though, is the arrogance of an agency 
that yet again is blatantly disregarding clear Congressional 
direction. As evidenced by the responses to my question, there 
is no room for ambiguity and Congressional opinion of the 
direction in which HUD is headed. So why does HUD persist? Do 
you believe that HUD is not accountable to the Congress or do 
you somehow believe that HUD has judgment superior to that of 
Congress?
    As Chairman of the Housing Subcommittee, I take 
responsibilities as an authorizer very seriously, and I fail to 
understand why you would believe it appropriate for me or any 
of my colleagues to concede that power to the Department. HUD 
is a troubled agency and merits very careful scrutiny and an 
extremely high threshold of Congressional accountability.
    Unfortunately, I have not seen any evidence of such an 
understanding and, in fact, quite the opposite. HUD continues 
to press forward with a RESPA proposal and thumb its nose at 
Congress. At a very minimum, HUD must have leadership that 
clearly understands the constitutional framework in which it is 
charged with implementing the laws written by Congress, not in 
implementing its own version.
    There is no uncertainty in this, and in continuing to move 
forward, HUD has demeaned the Congress as an institution and 
belittled the constitutional process. As a result of the 
concerns I have raised here today and the answers I have 
received on those concerns, I will be unable to support this 
nomination at this time, Mr. Chairman, and I would hope that 
HUD would listen more closely to what the Members of the 
Congress and the American people are saying as far as RESPA is 
concerned.
    Thank you, Mr. Chairman, and perhaps, Mr. Jackson, you 
would like to respond.
    Mr. Jackson. Thank you. I understand.
    Chairman Shelby. I think Mr. Jackson got the message.
    Mr. Jackson, while you have been in an acting--oh, excuse 
me, Senator Carper. Senator Carper is recognized. I was getting 
ahead of him, and should not have. I apologize to you.

             STATEMENT OF SENATOR THOMAS R. CARPER

    Senator Carper. Thank you.
    Mr. Jackson, welcome today.
    Mr. Jackson. Thank you, Senator.
    Senator Carper. It is good of you to come before us. We 
appreciate the spirit of service that you bring to your 
responsibilities.
    I was here when I think you introduced a number of members 
of your family. I was just outside the door when I heard the 
applause. I do not know if that was for you or for the members 
of your family.
    Mr. Jackson. Actually, it was for my beautiful wife, not 
me.
    [Laughter.]
    Senator Carper. Would Mrs. Jackson raise your hand.
    How are you? Nice to see you. Thank you for sharing your 
husband with the rest of us.
    You were good to visit with me within the last week. I just 
want to follow up. I had promised you there were a couple of 
things I wanted to explore with you, and what I would like to 
do is just to touch on a few of those now.
    One of those is Section 8 housing vouchers. As I mentioned 
to you before, I was elected to serve in the Senate. I served 
as Governor of Delaware for 8 years. And one of the things that 
I focused on a whole lot was self-sufficiency. I know that is 
of interest to you, and how do we foster self-sufficiency on 
behalf of people who have not been self-sufficient for much of 
their lives.
    I was involved, as a lead Democratic governor in the 
National Governors Association in 1995 and 1996 as we worked 
with the Clinton Administration and the Congress to fashion 
welfare reform as we know it today. And I am sure you recall, 
and others in the room will recall, how welfare used to be an 
entitlement program, Aid to Families with Dependent Children, 
and if a person walked into a welfare office in any State they 
could sign up for AFDC if they met the particular requirements. 
It was an entitlement program. They could be entitled to 
welfare for a really long time.
    What we did, under welfare reform, was we changed the 
nature of the program so that a person walks into a welfare 
office in Delaware, instead of saying, ``How would you like to 
go on welfare?'' we say, ``How would you like to go to work?'' 
And we say, ``What can we do to help you find a job, get to a 
job, meet your health care needs, your child care needs, and 
become actually better off than you otherwise would be on 
welfare?''
    I have heard some people saying, in trying to block grant 
the Section 8 voucher program, we are actually building on the 
success that we have enjoyed in welfare. We have seen the 
welfare rolls cut by about half. I want us to focus on whether 
or not that is a good basis of comparison or not today.
    We are also in the throes of considering whether or not to 
authorize the successor to Aid to Families with Dependent 
Children, AFDC, something called TANF, T-A-N-F, Temporary 
Assistance for Needy Families. What we did about, oh, gosh, 
over a half-dozen years ago, was we block granted AFDC, and we 
renamed it TANF. We asked the States how much money they 
thought they would need, and they have been pretty much 
provided with that amount of money, and we are about to 
reauthorize, hopefully, reauthorize TANF.
    And even though the welfare rolls are down by half, we are 
not going to cut the block grant. It is going to stay the same, 
and the reason why, as I am sure you know, is we use, States 
use, local governments use a lot of the TANF money not for cash 
welfare payments. In fact, I think maybe only half of the block 
grant is now used for cash welfare payments. The rolls are down 
by half. But what we used to do was we used a lot of the 
monies, to wrap around, and to help support those who have gone 
to work, help them to get to work, to provide for their child 
care needs and other things so that they will actually be 
better off and be more likely to succeed.
    Let us just talk a little bit about how block granting 
Section 8 housing vouchers is similar or dissimilar to what we 
have gone through with respect to AFDC, TANF, and the block 
grant approach there.
    One last thing, one last ``P.S. '' I used to say, when I 
was Governor and testifying before the Congress on this block 
granting proposal for welfare, I would say, you know, we need 
to create a rainy day fund. When Congress authorized the 
creation of TANF, they actually do have a rainy fund that was 
created. It is not really a rainy day fund. It is really what I 
call a ``rainy month'' fund because if the economy runs into 
trouble, and we end up with a whole lot more people on welfare, 
there is enough to carry a higher caseload for a couple of 
months.
    But let me stop talking and just ask you to share some of 
your thoughts with us, reflect on similarities or 
dissimilarities to what we have done with TANF.
    Mr. Jackson. Let me say, Senator Carper, I do believe that 
the Section 8 program, from my years running three major 
Housing Authorities, that the program was supposed to be 
transitional, to help people, from my perspective, from St. 
Louis all the way to Dallas, by helping families move from 
public housing or from substandard housing into self-
sufficiency.
    When I was at the Dallas Housing Authority, I tried to use 
the certificates and vouchers that way, rather than as a 
sustained substitute in many ways for public housing. I do not 
think that should be the case for the certificates and 
vouchers. Am I sensitive that we have many persons that are 
underserved or that will go unserved? Yes. I think there is no 
question. Even if you and your colleagues allocated 40 more 
billion dollars today, we would still have a serious problem in 
this country.
    But I do think that it is our responsibility to try to 
negate that problem as much as possible, and I also think it is 
our responsibility not only to serve the neediest of the needy, 
but also to serve the working poor in this country. These are 
persons who pay 50 to 55 percent, not of their adjusted gross 
income, but of their income, for rent. So, clearly, if we could 
give them a helping hand, and we are doing that through your 
support to the American Dream Downpayment and other programs, 
like HOME. But if we can continue to give them, as well as the 
lowest of the lowest, the chance to move out of poverty to 
other areas, I am going to support it.
    Now, if you notice, Mr. Senator, I do not ever use the term 
``poor'' because my mother and father told me that poor was a 
state of mind, not a condition. I said low-income people. And 
even they are 30 percent or less of median, they are still low 
income, but if they are 50 percent, they are low income, if 
they are 60 percent, they are low income. And I think that we 
need to look at the stratum of low-income people in this 
country and where they are within that stratum and say how can 
we help them, first, get into conventional rental housing; and 
second, to get into homeownership. That should be our task, not 
to keep them consolidated in public housing developments or on 
10 or 12 years on Section 8 certificates and vouchers.
    I think, again, to give accolades to the Senate and to the 
Congress, you all did a great job with TANF. You see people are 
beginning to move, and they work. I think if we demand this, 
people will take the responsibility.
    Let me close with a story because I think it is very 
important. I appeared some years ago, when I first went back 
home to Dallas to run the Housing Authority, and I made a 
suggestion that public housing residents should have the 
opportunity to pay rent. Many of my colleagues that I serve 
with now said, ``No, it is not going to happen.''
    Well, I got a chance, through the Congress, through HUD, to 
do a pilot program. The strangest thing happened. Everybody 
paid $25 a month for their rent, and there was no mass exodus 
from public housing.
    What I am saying to you is that I have confidence in low- 
and moderate-income people. And I think if you ask people that 
I have served for--and notice I did not say people that have 
worked for me because I think that when you get in these jobs, 
you service--ask people that I have served, whether it is in 
St. Louis or Washington, DC, and some of them are here today, I 
believe in their sense of worth.
    My father said something that I keep in mind; that every 
human being has the same sense of worth as every human being, 
and if you do not perceive them that way, they will never act 
that way.
    So, I believe that our task is to help every low-income 
person to try to transform themselves from total dependency to 
self-sufficiency, and that means everybody--not the people who 
can do it like the people who are sitting in this room, but 
those who are less fortunate.
    Senator Carper. Mr. Jackson, that is I think an eloquent 
statement. I am not sure it was an answer to my question.
    Mr. Chairman, my time has expired, and I want to be mindful 
of, but can I just dwell on this just for a moment?
    Chairman Shelby. Go ahead, Senator.
    Senator Carper. What I am getting at is this: An amount of 
money was allocated in a program that used to be an entitlement 
program which became a block grant. What you are proposing to 
do is to turn the Section 8 voucher program into a block grant 
to say to the State and local governments, to Housing 
Authorities, this is how much money you have to work with. 
There are those, when we attempted to block grant AFDC, who 
said, ``This is never going to work. We are not going to have 
enough money. What if we have a recession?''
    And what I am asking you to do is, based on the experience 
that we have gone through with TANF, to come back and explain 
to us why is this going to work. And you have heard from 
Senator Sarbanes. He just raised I think very serious concerns 
about the adequacy of the funding, and the fact that we know 
that there are a lot of people out there that are going to be 
needed to be served. We know the rents are going to go up, and 
he was contending, and I think others would contend, there is 
not enough money already available. You suggest that there is.
    What I am asking you is, looking back, help us to look 
forward. Looking back at TANF and AFDC, look forward with what 
you are proposing and do so briefly.
    Mr. Jackson. I think the block grant program will work, and 
we are not block granting it to the States. I think we got a 
clear ``no,'' on that last term. The block grant would be to 
the Housing Authorities. And basically the block grants will be 
in the amount that the Housing Authority have been allocated 
for certificates and vouchers. And I think if they utilize 
those certificates and vouchers as they have in the past, we 
are not going to be short.
    So, I believe that it will work. Will there be a 
substantial increase? No. I think we have seen a 23-percent 
increase the last 2 years. I do not think we can sustain that. 
It is three-fourths of our budgets, and I think we have to look 
at that like we look at everything. What is the best approach 
to address the needs?
    And I think, from my perspective, we can do one of two 
things, Senator, and I would say the same thing to Senator 
Sarbanes. We can either continue at the current rate, which is 
10- or 12-percent a year increase in the Section 8 program, or 
we can try to bring the Section 8 program within and make sure 
still it serves the same persons that we are so interested in 
serving. I think we have tried to do that in a very efficient 
and effective way without in any way hurting any present 
certificate holder or voucher holder.
    Senator Carper. Did you say, just 30 more seconds here, if 
I could, did you say earlier that the people that are 
graduating out or are leaving Section 8 vouchers, roughly 8 
percent? Did I hear you say that about 8 percent of the people 
who are currently are leaving?
    Mr. Jackson. It vacillates. Some years it is 12 percent. 
Some years it is 8 percent.
    Senator Carper. Well, let's say it is 10 percent.
    Mr. Jackson. Yes.
    Senator Carper. Are you saying that if, in year one, we are 
going to serve everybody that is being served now, after year 
one 10 percent of the people--let us say we start with 100 
people, make it easy, 100 people that we are serving. After the 
first year, we end up with 10 fewer people. We have 90 people. 
After the second year, we end up 9 fewer people. We have 81. 
After the third year, we end up with 8 fewer people. We have 
73.
    It does not take very long until you are not serving a 
whole lot of people through this program, if I understood what 
you said correctly.
    Mr. Jackson. That is not necessarily true. I am saying to 
you that----
    Senator Carper. And we have not added anybody new, but 
simply----
    Mr. Jackson. Oh, no, I am saying to you, yes, when people 
move off of the program, we are adding people new into the 
program. And these persons might not meet the 30-percent 
adjusted gross income requirement. They might only require 50 
percent of adjusted gross income.
    Now, as you know, we have two sets of rules how we put it. 
The vouchers and certificates, you cannot go with 30 percent of 
adjusted income--I mean certificates--but vouchers you can go 
up to 50 percent. So, clearly, we will be saving money, from 
our perspective, and addressing the needs because everyone 
might not be as critical in need. Even today--let me say this 
to you--we have people, when they are homeless, that clearly 
jump over other people on the waiting list. That has been the 
case. Even though the other people are in dire need of 
certificates or vouchers.
    So my position is, yes, we will be saving money, and I 
would be happy, Senator Carper, to sit with you in your office 
and go over the analysis.
    Senator Carper. Good, I will bring my calculator.
    Mr. Jackson. All right.
    Senator Carper. You bring yours.
    [Laughter.]
    Mr. Chairman, thank you.
    Chairman Shelby. Thank you.
    Senator Sarbanes.
    Senator Sarbanes. I want to follow up with what Senator 
Carper was asking you. This growth in that budget has, in part, 
been stimulated by HUD, and I approve of what HUD did. The 
utilization was low on the part of the PHA's. HUD made the 
point to them that you are getting authorized these vouchers, 
but you are not utilizing them. What is wrong? You have people 
needing housing, and you are not delivering on it, and the 
PHA's went out, and they made a real effort, and they have now 
boosted their utilization rate up to about 97 percent, which is 
quite, historically, quite high.
    And I think that accounts for this upsweep that you see. 
So, I do not see you projecting out the same increase in costs 
in future years, unless there is an increase in the number of 
vouchers that are authorized, but at the moment, we are just 
looking at what has been authorized, and how you meet that and 
the fact that people are holding these vouchers. You do not get 
in the situation Senator Carper indicated, in which they come 
empty, you do not renew them, and the amount of available 
housing is diminishing instead of increasing.
    Your own budget documents from HUD indicate reduction in 
program cost with respect to the tenant-based and moderate 
rehab vouchers, $1.633 billion. That is your own document. So 
we are not--I mean, you may give us documents. We may disagree 
with them and cite a different figure. At the moment, I am 
using your figure in terms of the shortfall. I think this issue 
obviously needs to be revisited.
    I have to tell you I think we are confronting a budget cut 
that has been imposed from somewhere, and we are in search of a 
policy rationale for it, and I do not think that policy 
rationale is there.
    Now, we have a vote. I want to put one other question to 
you before we break.
    Mr. Jackson. Yes, sir.
    Senator Sarbanes. I mentioned, in my opening statement, the 
importance of the procurement and grant competitions that HUD 
has to conduct. Over the years, I have stayed out of efforts 
so, you know, people are bidding for a contract or from HUD you 
have a competitive bidding process, and it seems to me you do 
not want people weighing in trying to get that bidding process 
decided by political weight as opposed to the merits of the 
bid. Otherwise, how do you make policy and how do you run 
Government under that circumstance? But I do feel strongly that 
the bid process must be fair, and people must understand that 
it is fair.
    Now, you had a situation where the losing bidder--and we 
know this because they are a corporate citizen in our State--
protested the award and went to the GAO under the established 
procedures. The GAO found that there was disparate treatment in 
evaluating the proposals, that the two companies were not--the 
competing companies--were not treated fairly, that the record 
did not support the Agency's conclusion, and they went on to 
say that the Agency seemed to have adopted a double standard, 
and the GAO recommended that HUD reopen the acquisition and 
engage in discussions, obtain revised proposals, evaluate those 
proposals, consistent with the GAO findings, and make a new 
award determination.
    Now, my understanding is that HUD is undertaking to do 
this, but we are getting reports which greatly concern me, 
that, first of all, not enough time is being provided for the 
resubmission of the bids, and I had been led to believe that 
enough time would be provided which I think is of elemental 
fairness and that requests have been made about clarifying the 
new bids and responses have not been coming to that request.
    Now, both of those concerns seem to me to involve matters 
of elementary fairness. I also think, and I do not know what 
you are doing on this, that the second bid process should be 
determined by a group different from the ones who did the first 
bid process and who were so sharply criticized by the GAO.
    This does not seem to me to be a difficult problem. All we 
need is to be assured of the fairness of the rebidding process, 
which the GAO has pointed out. Of course, you have taken the 
first major steps because you are engaged in that process. Can 
you take care of these other aspects of this situation?
    Mr. Jackson. Surely, Senator. I agree with you totally in 
your assessment. The only thing I guess I would say is that we 
perceive that the persons who carried out the first process are 
fair. There might have been some mistakes made. But I have 
absolutely instructed them to make sure that in this process of 
reopening the concerns that were raised by GAO, that we do this 
in a very, very fair manner.
    The second part of your response, when you say that some of 
the information that was requested by this company, we have 
made sure that that information is forthcoming, and I can 
assure you that we will give them substantial time to respond 
to that. We are not going to, in any way, cut short--if they 
have not received any information that they have asked for, and 
they have not received it in a timely manner, we will take that 
into consideration.
    As I told you before, we are not going to in any way rush 
this process. We are going to give them every opportunity to 
respond.
    Senator Sarbanes. Well, they need the information, and then 
they need adequate time in order to consider it.
    Mr. Jackson. That is correct.
    Chairman Shelby. Mr. Jackson, I have three questions I am 
going to submit to you for the record because we have go to 
vote, Senator Sarbanes and I, and then we will come back and we 
will get to the second panel.
    The first question--and you do not have to answer it now--
but this deals with HUD's lack of a chief financial officer. 
You know the problem. Will this Committee see a nominee for the 
chief financial officer in the near future? What are your plans 
in the interim to ensure that HUD maintains adequate internal 
controls and accounting systems?
    Personnel management at HUD. Second, a significant share of 
HUD employees will be eligible for retirement over the next 
several years. In addition, HUD has historically had difficulty 
attracting talented people. This issue is one of your primary 
responsibilities, and what have you done to keep knowledgeable 
staff and attract talented new staff ? We would like to know 
that, for the record.
    Subprime loans, FHA subprime loans. For several years 
running, the Administration has proposed a new subprime loan 
product within FHA. We have yet to see legislative language. 
Can you provide some information and details on this proposal, 
if you would, for the record. We appreciate this. We are going 
to let you go now. We await the answer to that.
    Chairman Shelby. Thank you for appearing here today, and 
the Committee is going to be in recess for the next 10 to 15 
minutes.
    [Recess.]
    Chairman Shelby. The Committee will come to order.
    First of all, I think all of you know how the legislative 
process works, and we have been voting and so forth.
    I know that the first panel, the nominee to be the HUD 
Secretary, took a while.
    If I could, I would like to swear you both in. Please stand 
and raise your right hand.
    Do you swear or affirm that the testimony that you are 
about to give is the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Conlin. I do.
    Ms. Keenum. I do.
    Chairman Shelby. Do you agree to appear and testify before 
any duly-constituted committee of the Senate?
    Ms. Conlin. I will.
    Ms. Keenum. I will.
    Chairman Shelby. Thank you.
    Your written testimony will be made part of the record.
    Ms. Conlin, we will start with you and go from there.

       STATEMENT OF LINDA MYSLIWY CONLIN, OF NEW JERSEY,

          TO BE A MEMBER OF THE BOARD OF DIRECTORS OF

          THE EXPORT-IMPORT BANK OF THE UNITED STATES

    Ms. Conlin. Thank you, Mr. Chairman.
    It is indeed an honor and a privilege to appear before you 
today as the President's nominee to become a Director at the 
Export-Import Bank of the United States.
    I appreciate the confidence that the President has placed 
in me, and I am deeply grateful to President Bush for giving me 
another opportunity to serve my country. If confirmed, I look 
forward to working with the Members and staff of this 
Committee.
    I would like to recognize my husband, Joe, who is with me 
here today----
    Chairman Shelby. Joe, please stand up so we can see you.
    Ms. Conlin. He is easy to see--and my 87-year-old mother, 
Helen Mysliwy.
    Chairman Shelby. She is more important.
    Ms. Conlin. Yes, and I know she joins me, Senator, in 
thanking you for pronouncing my maiden name and her name 
correctly.
    Chairman Shelby. I had to work on it. Thank you.
    Ms. Conlin. You did a great job.
    I would also like to recognize, Mr. Chairman, the 
colleagues from the Department of Commerce and the fine team 
from the Ex-Im Bank who have provided me with such great 
support.
    I know the Committee has my biographical information, so I 
will not go into detail about my qualifications; I would ask 
that they be submitted with this oral statement.
    Chairman Shelby. They will be made a part of the record.
    Ms. Conlin. Thank you, Mr. Chairman.
    Mr. Chairman, today, exports of goods and services in this 
country support more than 12 million jobs. They are good jobs, 
paying as much as 18 percent more than the average. If 
confirmed, I will be committed to helping American exporters 
and workers succeed in what has become an increasingly 
competitive global economy.
    At the same time, I am mindful of what Secretary of 
Commerce Don Evans often says, ``that governments do not create 
wealth and prosperity--people do. It is government's role to 
create the right conditions in which America's workers and 
businesses will flourish.''
    Creating the right conditions to grow export-related jobs 
means providing exporters with the tools to compete in today's 
global economy. During my 19 years in Federal and State 
government, including my current position as Assistant 
Secretary of Commerce for Trade Development, I have helped 
companies, both large and small, gain access to world markets 
by providing the support that they need to reach those markets.
    Representing Secretary Evans as an ex officio member of Ex-
Im Bank's Board of Directors, I have come to appreciate the 
critical role that access to export and project financing plays 
in enabling our companies to compete.
    I also know, Mr. Chairman, that today's small and medium-
size businesses represent 97 percent of exporters, yet generate 
30 percent of all exports. I am pleased to see that Ex-Im Bank 
has placed a priority on cooperation among the 19 members of 
the Trade Promotion Coordinating Committee to leverage Federal 
resources in reaching this important community of potential 
exporters.
    I also look forward to helping Chairman Merrill implement 
his broad vision of providing competitive products to the new 
knowledge-based service economy as well as traditional 
industries, if confirmed.
    I look forward to working with the Committee Members as 
well as Chairman Merrill, Vice Chair Foley, Directors 
Grandmaison and Cleland, the career professionals at Ex-Im 
Bank, the trade team of the Administration and the exporting 
community in meeting these challenges.
    Mr. Chairman, I respectfully ask for the Committee's 
favorable consideration of my nomination and will be pleased to 
respond to your questions.
    Chairman Shelby. Thank you. I will assure you that we will 
move your nomination as expeditiously as possible and also Ms. 
Keenum; I think you both have broad support here.
    Chairman Shelby. Ms. Keenum.

         STATEMENT OF RHONDA N. KEENUM, OF MISSISSIPPI,

           TO BE ASSISTANT SECRETARY OF COMMERCE AND

             DIRECTOR GENERAL OF THE UNITED STATES

                 AND FOREIGN COMMERCIAL SERVICE

    Ms. Keenum. Thank you, Mr. Chairman.
    It is a privilege to come before you as the nominee for the 
position of Assistant Secretary and Director General of the 
United States and Foreign Commercial Service.
    I am humbled and honored that President Bush would nominate 
me for this role. And I am eager to take on the challenge.
    I would first like to thank Senator Thad Cochran and 
Congressman Roger Wicker for their kind remarks. Both of these 
distinguished leaders mean a tremendous amount to me and my 
family, personally and professionally.
    I would also like to express my sincere thanks to Secretary 
of Commerce Donald Evans, former Deputy Secretary Samuel Bodman 
and Under Secretary Grant Aldonas for their support of me 
personally and of my nomination.
    And I would be remiss if I did not thank my spouse of 20 
years, over my left shoulder, Mark Keenum--do you want to 
stand, honey--
    Chairman Shelby. We see a lot of him in the Senate.
    Ms. Keenum. What makes America the greatest Nation in the 
world is the entrepreneurial spirit of the American people no 
matter what their background.
    Growing up in Mississippi, I was a first-hand observer of 
the power of that entrepreneurial spirit. My father, James 
Newman, left public service after almost a quarter of a century 
to pursue his dream of starting his own business, and pursue it 
he did--risking limited family savings, stable employment and 
my mom's sanity in the process. His risk and investment some 25 
years ago continue to generate precious dividends in the 
tangible evidence of community jobs, interstate commerce and 
income that even now, some 4 years after his death, provides a 
financial safety net that my family would not have otherwise 
had.
    This story--my story--illustrates the power of small 
businesses all over this great country. Small businesses create 
more than two out of every three new jobs and generate about 50 
percent of our Nation's gross domestic product.
    In this time of great change in our domestic and 
international economies, it is imperative for our Government to 
assist American businesses to obtain access for their products 
and services in the international marketplace. This is not only 
the mandate of the U.S. and Foreign Commercial Service, but it 
is also the dedicated focus of its programs and employees.
    The Commercial Service's worldwide network achieves this 
goal every day by linking American suppliers with international 
buyers, advocating for their best interests with foreign 
governments, and ensuring a level playing field. The programs 
and expertise provided by the Commercial Service are critical 
to the success of American companies in competing and winning 
in global markets. I have observed the efforts of Commercial 
Service employees to assist American companies in often 
difficult circumstances, and have been impressed with their 
skills, dedication, and pride in public service.
    If confirmed, I commit to a continuous assessment of, and 
investment in, both the development of innovative trade 
programs and the complex network that delivers them. My goal 
will be to ensure that the Commercial Service not only 
continues to meet the high expectations that our clients have 
of us, but also that we exceed those expectations.
    I will look to maximize the synergies we have with State 
partners, as well as local partners, industry associations, and 
sister Federal partners to provide companies in all States with 
access to the tremendous opportunities available to them 
through exporting.
    If confirmed, I welcome the challenge to lead the trade 
promotion arm of the Federal Government. My two decades of work 
experience have been driven exclusively by client, constituent, 
and consumer accountability. Those years of managing public 
relations campaigns, leading field-based organizations, 
developing and adhering to complex budgets, building 
coalitions, and motivating and mentoring staff have prepared me 
for the myriad of opportunities ahead.
    If confirmed, I pledge to conduct myself with unwavering 
commitment, taking ownership of every action, standing up for 
entrepreneurial ideas, like those of my father, and standing by 
the over 1,600 dedicated public servants that have long made 
the Commercial Service an organization that leads rather than 
follows.
    If confirmed, I will pursue the stewardship of the Service 
with energy, integrity, accountability, and a diligent 
awareness that we are here to serve our clients--American 
businesses.
    Mr. Chairman, thank you for the opportunity to be here 
today. I also want to say thank you and appreciation to family 
and friends.
    I will be happy to answer any of your questions and welcome 
your comments.
    Chairman Shelby. Thank you very much.
    I will start with Ms. Conlin. We understand, Ms. Conlin, 
from your testimony and your background that you bring a lot of 
experience and understanding from your 2\1/2\ years at the 
Department of Commerce working with Secretary Evans on trade 
development issues.
    Maybe you could go into a little more detail regarding what 
trade development is and what that really entails. How do you 
feel this Government initiative has helped create the right 
conditions to promote U.S. exports and develop new markets for 
U.S. products, which is crucial to us in this economy? What 
measures would you recommend be taken in this area?
    Ms. Conlin. Mr. Chairman, I had the privilege of working 
with some 370 industry sector and trade specialists at Trade 
Development who cover major sectors of the U.S. economy. Our 
focus has always been to strengthen the global competitiveness 
of U.S. businesses, to expand exports and the jobs they create, 
to address any barriers that may exist to trade, and to 
advocate on behalf of U.S. businesses seeking large foreign 
government contracts. In all of those ways, I believe that our 
trade development team has been very, very successful.
    In fact in advocating on behalf of business, I have worked 
very closely with Ex-Im Bank's Board.
    Chairman Shelby. I am sure you are aware of a hearing that 
we held at this Banking Committee last year regarding the Trade 
Promotion Coordinating Committee or TPCC which allowed us on 
the Committee to take a closer look and hopefully get a better 
understanding of our national export strategy.
    Ms. Conlin. Yes.
    Seeing that the Ex-Im Bank is an integral member of the 
TPCC, what steps would you like to see taken in identifying 
ways to expand coordination among the TPCC agencies and enable 
our trade policy to optimize and take advantage of all the 
resources we have?
    Ms. Conlin. Mr. Chairman, if confirmed, I would look 
forward to the opportunity of working with Chairman Merrill and 
the Board on helping to really leverage Federal resources in 
the best way possible and coordinate Federal resources to reach 
that large universe of potential exporters that I talked about 
earlier.
    I think it is really incumbent upon all the agencies of the 
Federal Government to continue to work together through an 
organization like the TPCC. Working through the TPCC will 
enable us to really reach this large universe of small and 
medium-size businesses that may be unaware of the services that 
the Federal Government provides so that we can bundle and 
package these services together.
    Chairman Shelby. I know you are aware of the Export-Import 
Bank decision in December to formally establish a $500 million 
short-term loan facility to support the Trade Bank of Iraq. 
This measure was part of a broader, 16-nation agreement to 
provide $2 billion in such support. This is in addition to the 
$13 billion pledged during the Madrid donors' conference in 
October.
    What are your thoughts, if you have some, regarding the Ex-
Im Bank's future role in Iraq and this outstanding loan, 
especially as Iraq makes the transition to a sovereign 
government?
    Ms. Conlin. It is my understanding, Mr. Chairman, that the 
Bank has not approved any transactions to date.
    Chairman Shelby. Okay.
    Ms. Conlin. That is at least my understanding. But having 
said that, let me say that establishing democracy in Iraq and 
restoring economic freedom is critical to the future of Iraq. 
In that regard, Ex-Im Bank in supporting our U.S. exporters and 
providing goods and services critical to the reconstruction of 
Iraq is absolutely essential. And if confirmed, I look forward 
to working with the provisional Iraqi Government, with the 
Coalition Provisional Authority, and other U.S. agencies to 
ensure that our exporters will continue to play a role.
    Chairman Shelby. Thank you.
    Ms. Keenum, the Office of Management and Budget's Program 
Assessment Rating Tool gave the United States and Foreign 
Commercial Service a rating of ``Adequate.'' This rating was 
critical of the Service in a number of areas, including its 
practical utility when compared with alternative means of 
executing key parts of its mission, its failure to achieve or 
even adequately measure its annual performance goals and, most 
important, its failure to adequately measure its cost of doing 
business and consequently to budget accordingly.
    I do not expect you this morning to address the PART's 
rating here today, but I would appreciate it if you could 
respond a little bit and give us an overview--how could you 
address this rating criticism, for the record? If you want to 
do it for the record, you can do that.
    Ms. Keenum. If confirmed, as I stated in my earlier 
statement, one of the first things that I will look to do is 
assess the existing products and services and the entire 
delivery system of the Commercial Service to ensure maximum 
impact for positive benefit for small and medium-size 
businesses.
    I cannot speak to the OMB rating specifically, but we would 
be glad to provide something in writing for you.
    Chairman Shelby. All right, if you could do that for the 
record.
    Ms. Keenum. I would be glad to.
    Chairman Shelby. Ms. Keenum, the position to which you have 
been nominated is a key component, as you well know, in the 
execution of this country's national export strategy. By 
overseeing 1,700 United States and foreign-based commercial 
officers whose responsibility it is to assist American 
companies to identify new opportunities for business in foreign 
countries and to navigate the bureaucratic mazes that often 
stand between them and the sale of their goods and services 
abroad, you are in a sense, to borrow from the military, ``at 
the tip of the spear,'' or you will be.
    I would not expect you to say anything that contradicts 
your support for the Administration's budget request for export 
promotion activities, including the mission, for the 
International Trade Administration, for which an additional $11 
million was included in the 2005 budget. Could you share with 
the Committee your thoughts on whether the resources the 
Administration allocates for export promotion activities is 
adequate to keep pace with the growing number of bi- and multi-
lateral trade agreements that the Administration is currently 
negotiating? In other words, this seems like a little bit of 
money to tackle a big, big job.
    Do you foresee a need for additional resources as market 
opening agreements continue to be concluded as you get into the 
job?
    Ms. Keenum. Mr. Chairman, I will never say that I will 
never come and ask for money, but if confirmed, again, adhering 
to my earlier point about assessing the delivery system and the 
products to ensure maximum impact for small and medium-size 
businesses and also within the jurisdiction of the Commercial 
Service--as you know, it is the trade promotion arm of the 
Federal Government--so within the jurisdictional powers that I 
will have, diligence and stewardship will be key; I can assure 
you of that.
    Chairman Shelby. Ms. Keenum, you will be assuming this 
position during an unusual time, as you know. The U.S. dollar 
has weakened considerably against major foreign currencies, 
especially the euro. Only through currency pegs and 
manipulation have the Chinese and Japanese currencies not grown 
relative to the dollar. The up side to the weaker dollar, as we 
all know, is increased exports. Unfortunately, the job growth 
that would normally accompany such an increase has failed to 
materialize. We are all hoping and praying.
    While there are no doubt macroeconomic explanations for the 
failure of the economy to generate more jobs consistent with 
the economic revitalization we are witnessing and the growth in 
exports, many of us in Congress are viewing the situation with 
concern. The U.S. Commercial Service touts its mission as 
creating economic prosperity and, ``more and better jobs for 
all Americans.'' I like that.
    Clearly, this is an issue that transcends the position for 
which you have been nominated; it is macroeconomics. I would 
like to ask you, however, how do you envision yourself in your 
new position approaching the current problems with respect to 
job creation? I know you cannot do it all, but you will have a 
bit of it.
    Ms. Keenum. Yes, sir. If confirmed, I do recognize the 
measure of responsibility as it relates to, frankly, promoting 
the awareness of the United States and Foreign Commercial 
Service. A lot of people just do not realize that it is out 
there. I often wonder what my dad would have done if he had 
known about the United States and Foreign Commercial Service 15 
years ago.
    Chairman Shelby. What business was he in? A lot of it?
    Ms. Keenum. Excuse me?
    Chairman Shelby. Was he in a lot of business?
    Ms. Keenum. He actually was in one. He salvaged airbags for 
used automobiles. If an automobile is wrecked, and the 
passenger airbag does not inflate, for example, my father saw a 
market in that about 20 years ago and created a warehouse so 
that at any point in time, you could go in, and if you had a 
1997 Nissan, whatever it might be, or a Honda Accord, he could 
provide either a driver's side or a passenger side airbag for 
you.
    Chairman Shelby. He sounds like a resourceful man.
    Ms. Keenum. He was, he absolutely was.
    But getting back to your point----
    Senator Sarbanes. Where is that warehouse located?
    Chairman Shelby. Not in Maryland.
    Senator Sarbanes. I assume in Mississippi.
    Ms. Keenum. It is. It is in northeast Mississippi.
    Because I have been a witness to the power of that 
entrepreneurial spirit--promoting the awareness of the Service 
and its products and its services will be a key objective of 
mine.
    Chairman Shelby. Thank you.
    Are U.S. exports, especially those enjoying the benefits of 
the weakened dollar, representative of a shift in the U.S. 
economy toward goods and services that do not bring with them 
increased employment? Some of our economists have spoken to 
that.
    Ms. Keenum. Mr. Chairman, a lot of economists have gotten 
in trouble, I think, in the last several weeks for speaking, so 
I am not even going to try to speak to that. But the currency 
issue, again, I understand--I know it is an issue--and in 
assessing the products and services and the global environments 
in which we operate, that is certainly key.
    Chairman Shelby. Ms. Keenum, you will be the lead office in 
trade promotion for the Federal Government. The Committee has a 
large interest in the activities of the Trade Promotion 
Coordinating Committee. I have mentioned this earlier. In the 
past, the position to which you have been nominated worked 
closely with the TPCC. If confirmed, you will now essentially 
be the principal office overseeing the Trade Promotion 
Coordinating Committee.
    Do you believe that the current structure of the Federal 
Government for trade promotion is optimal; are there areas for 
improvement, or will you need to get into the job and have a 
little time before you can answer that?
    To the extent that there are areas where the structure and 
process could be streamlined or improved, could you provide the 
Committee some sense of how you would go about that? And if you 
feel like you need to get into the job before you answer that, 
that would be fine, too. You may proceed as you wish.
    Ms. Keenum. Yes, Mr. Chairman, I would ask that if I could 
submit those for the record in writing to you at a later time.
    Chairman Shelby. Fine.
    Ms. Keenum. But if I might add that the TPCC is one of the 
most amazing uses of our Government's dollars, and sitting to 
your right and to my left, the architect of TPCC, and the 
understanding that with limited resources, there has to be 
collaboration and coordination. I would certainly look to, 
again, assess how we can contribute to its continuing success.
    Chairman Shelby. Thank you.
    [Written responses of Ms. Keenum follow:]
    Chairman Shelby. Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    I am pleased to join you in welcoming before the Banking 
Committee this--I was going to say this morning--this 
afternoon----
    Chairman Shelby. Yes, it is afternoon now.
    Senator Sarbanes. --these two nominees, and I have just a 
few questions to ask them.
    Ms. Conlin, you of course have been the Assistant Secretary 
of Commerce for Trade Development and by all accounts have done 
a good job there and actually have had quite extensive 
responsibilities. You also oversee the Advocacy Center, as I 
understand it, at Commerce----
    Ms. Conlin. I do.
    Senator Sarbanes. --which assists U.S. companies in 
competing for contracts for major capital projects abroad.
    Tell us a bit about why you are moving over to the Ex-Im 
Bank.
    Ms. Conlin. Senator, Mr. Chairman, the President has given 
me another opportunity to serve I think in an important 
capacity. It is one in which it allows me to take all the 
experience that I have gained in trade development and helping 
companies access international markets and to use that 
experience hopefully in the service of the Bank, where I do 
understand that for many of our exporters, access to capital 
and access to financing, is a critical ingredient in their 
ability to compete.
    It is a very competitive environment out there. Not only am 
I grateful to the TPCC and to its architect for bringing 
together Government agencies so that companies can have an 
easier time of accessing resources, but I also know that 
because of the support that foreign governments give to their 
businesses, it is absolutely paramount that all agencies of the 
Government work together.
    So it is my hope that I would bring experience from 
Commerce to the Ex-Im Bank and put it to good use.
    Senator Sarbanes. You have been Secretary Evans' designated 
representative over at the Export-Import Bank.
    Ms. Conlin. Yes, Senator.
    Senator Sarbanes. He is an ex officio member of its Board. 
So I guess you have formed some opinions about its operation; I 
mean, you have seen them from the inside, so to speak.
    Do you think the Bank could be more aggressive in providing 
financial assistance to U.S. exporters and in particular in 
responding to export subsidies that are provided by foreign 
nations to foreign competitors?
    Ms. Conlin. Well, Senator, I have been very impressed with 
what I have seen with the work of the Bank--the work of the 
career professionals there, the rigorous analysis that they 
give to transactions.
    I also know that we live in a very competitive environment. 
I would say that if confirmed, I would look forward to working 
with Chairman Merrill and the members of the board to make sure 
the products and services that Ex-Im Bank provides continue to 
meet the challenges that we see with foreign government 
competition.
    Senator Sarbanes. When we did the reauthorization last year 
in this very Committee, we authorized the Ex-Im Bank charter 
through 2006. But we are watching the Ex-Im Bank closely even 
though they do not have to come back for their charter for a 
while.
    That legislation significantly strengthened the authority 
of the Ex-Im Bank over the Tied Aid Credit War Chest, and it 
also gave the Ex-Im Bank explicit authority to match market 
window financing provided by other governments.
    I think the Congress sent a very clear signal that while 
the most preferred situation would be where no one was 
underwriting, and the companies competed on the basis of price 
and quality--and we are very frank to say we think if our 
people have a level playing field in that regard, they will do 
okay for themselves--but the real concern, of course, is when 
they get on a playing field that is not level, because other 
governments are providing significant support to their 
companies in bidding for these export opportunities.
    I just underscore that to you, because I do think that the 
Congress in the course of reauthorizing the Bank's charter sent 
a very clear message that we wanted these resources that are 
being provided to the Bank to be used to help create a level 
playing field for our exporters.
    We also in that measure increased the percentage of Ex-Im 
Bank financing that must go to small business from 15 to 20 
percent. I think that represents a challenge for the Bank. I 
wonder if you have any feel for how that is proceeding.
    Ms. Conlin. I agree with you, Senator, that we in the U.S. 
Government should do everything we can to address trade-
distorting measures and to eliminate them, and as I understand 
it, Ex-Im Bank has been working very vigorously within the OECD 
to do exactly that.
    I think at the same time, if confirmed, I would be prepared 
to address foreign competition with all the tools necessary to 
meet that competition.
    And last, let me just say that as a former small business 
owner--and I am proud that I had a wonderful father who gave me 
the best business lessons and life lessons of my lifetime--I 
look forward to working with small and medium-size businesses 
and seeing that, if confirmed, I can work with the Bank in 
continuing to meet and surpass that 20 percent goal.
    Senator Sarbanes. Yes, I think that was an initiative 
initially put forward by Senator Allard.
    Chairman Shelby. Yes, that is right.
    Senator Sarbanes. And it is one that commanded support on 
the Committee, and we want to keep developing that small 
business dimension, recognizing nevertheless the interests that 
our very large companies also have in the Ex-Im Bank.
    I know that as Assistant Secretary of Commerce for Trade 
Development, you have been involved in the work of the TPCC, 
and I appreciate the kind remarks about the Committee. Do you 
have any perception about how the Coordinating Committee is 
functioning?
    Ms. Conlin. Senator, I think it is functioning very well. I 
think it has many opportunities for even greater cooperation 
among agencies and departments. Let me just give you an 
example.
    Through the TPCC, our Advocacy Center worked very closely 
with Ex-Im Bank in creating a letter of interest whereby a 
company or an interested business can come forward to the 
Advocacy Center and at the same time get a letter of interest 
for preliminary financing from Ex-Im Bank, bundle that 
together, and have a much more competitive bid going forward. 
They have just started that process, but I think that bodes 
well.
    That is just a small example of what is possible through 
working within the TPCC. So, I am encouraged by what has taken 
place, and I look forward to continuing to work within the 
TPCC.
    Senator Sarbanes. That is a very good example, because on 
the ground where these businesses are trying to compete, that 
really counts, I would think, yes.
    Ms. Keenum, if I could ask you just a few questions. When 
we passed the Export Enhancement Act in 1992 which came out of 
this Committee, where we set up the TPCC, we also directed the 
Commerce Department's United States and Foreign Commercial 
Service to promote exports by utilizing district and foreign 
offices as one-stop shops for U.S. exporters to provide 
exporters with information on all export promotion and export 
financing activities of the Government and to assist them in 
identifying what programs could be helpful to them and assist 
them in making contacts with the Federal program. This was a 
place that exporters could go--again, small and medium. The 
extremely large companies have their own shop, and they are 
pretty well plugged into the system, but we need to provide 
this information for medium and smaller companies.
    The Commerce Department, pursuant to that requirement, 
developed a network of one-stop shops across the country--the 
so-called U.S. Export Assistance Centers. The first one was 
established in Baltimore, I am pleased to say, in 1994, and by 
all accounts has been doing a pretty good job. Recently, the 
rumor surfaced that they were thinking of moving the shop out 
of Baltimore--I guess I should say out of the Port of 
Baltimore, so to speak.
    Do you know the status of that location with respect to 
that Export Assistance Center?
    Ms. Keenum. Senator, my understanding of the status is that 
it is being resolved with your capable staff's assistance in 
securing some GSA-approved locations, and it is being resolved 
to your satisfaction and our mutual benefit.
    If confirmed, please know that if there is no resolution, I 
will diligently work to have immediate resolution to your 
satisfaction.
    Senator Sarbanes. All right. I think it is important when 
you locate these Export Assistance Centers that their location 
command the support of State and local people and the local 
businesses and so forth, and that its location is not simply a 
matter totally within the discretion of whoever is heading the 
office at the particular time. There are broader and objective 
considerations that go into the location. They were involved in 
locating it there in the first place, and to my view are still 
valid, and just because it might serve a particular personal 
preference of the director of the office is not adequate 
grounds for determining its location.
    You do not have to answer that. I will just leave that with 
you.
    The other is the Commercial Service I think has an 
important role to play working through the Commerce Department 
in the TPCC. Of course, the Secretary of Commerce is the Chair 
of the TPCC--actually, the Chairman of the Ex-Im Bank is the 
Vice Chair. So, I would anticipate the Commercial Service--it 
has been playing that role--I am sure you anticipate that it 
would continue to do so.
    Ms. Keenum. Absolutely, yes, sir.
    Senator Sarbanes. How many people work for the United 
States Foreign and Commercial Service?
    Ms. Keenum. We have about 1,600 dedicated public servants. 
We have about 335 domestically, and we have an additional 150 
or so, if you will, in headquarters in Washington DC who 
provide the support to our domestic and global field team. And 
then we have approximately 1,100 people posted in 80 countries 
internationally. Of those, 300 are foreign service officers. 
That should come to about 1,600, Senator.
    Senator Sarbanes. Are the other 800 foreign hires?
    Ms. Keenum. Yes, sir, foreign service nationals.
    Senator Sarbanes. And how are they picked, the foreign 
hires? Presumably, the offices overseas are headed up by a 
foreign service officer--is that right----
    Ms. Keenum. My understanding, yes, sir, correct.
    Senator Sarbanes. --or by a U.S. career person.
    Ms. Keenum. Yes, sir.
    Senator Sarbanes. Okay. Now, the foreign hires in those 
offices, these would be presumably citizens of the country in 
which the office is located; is that right?
    Ms. Keenum. Yes, sir. My understanding is that is correct.
    Senator Sarbanes. And how are they selected; do you know?
    Ms. Keenum. Senator, in my earlier statement, I had 
expressed that if confirmed, one of the first things that I 
want to do is to assess the inventory of not only the 
Commercial Service's products and services but also the entire 
delivery system.
    I would be glad in my assessment in a more immediate form, 
if you should require, to provide that confirmation to you in 
writing in terms of the exact hiring process for foreign 
service nationals at our international posts.
    Senator Sarbanes. You do not need to do it for purposes of 
this enterprise, but I am encouraged to hear that you have that 
on your agenda, because I think it might benefit us for you to 
take a careful look at how that--I mean, you would be a new 
person, so you would have a new, fresh look at things, and I 
think I would encourage you to do that.
    Mr. Chairman, I must say that I think this area of our 
activity has been working pretty well, both the Commerce 
Department and the Ex-Im Bank, and I think the degree of 
professionalism has increased and improved. I think it is 
important that that be the case. After all, they are there to 
serve all of our citizens without regard to their politics, and 
there is an important national interest involved in these 
companies being well-served, so I am pleased to join with you 
in welcoming these nominees.
    I have no further questions.
    Chairman Shelby. Senator Sarbanes, we know on the Banking 
Committee that you, as a Member and also when you were 
Chairman, took a lot of interest in international trade and 
export, and I want to note that for the record.
    Ms. Conlin, Ms. Keenum, we look forward to supporting your 
nominations. We want you to do a good job because these are 
important jobs in America.
    Thank you for appearing before the Committee. Thank you for 
your patience in waiting.
    Ms. Conlin. Thank you, Mr. Chairman. Thank you, Senator.
    Ms. Keenum. Thank you, Mr. Chairman, Senator Sarbanes.
    Chairman Shelby. The hearing is adjourned.
    [Whereupon, at 12:20 p.m., the hearing was adjourned.]
    [Prepared statements, biographical sketches of the nominee, 
and response to written questions supplied for the record 
follow:]

                PREPARED STATEMENT OF SENATOR JACK REED

    I would like to thank Chairman Shelby and Senator Sarbanes for 
scheduling this nomination hearing. This is an important process, and I 
appreciate the willingness of all of our nominees to become public 
servants.
     However, I would like to focus my statement this morning on Mr. 
Jackson's nomination.
     Mr. Jackson, you have been nominated for a position that requires 
you to manage an agency that has responsibility for some of the most 
vulnerable families in this country. Many of these people are elderly 
or disabled or just plain out of luck. As a result, if confirmed, you 
often will be in the position of being their primary champion.
     One of your chief responsibilities in this area is going to be 
advocating within the Administration for appropriate resources for our 
Nation's housing programs. Given the current budget environment and 
Administration proposals like the $1.6 billion cut in the Section 8 
voucher program, this part of your job will be extremely tough, but 
vitally important to working families across the country who are 
finding it more and more difficult to afford housing.
     Unfortunately, the very strength of the housing sector in our 
economy has been causing rental and homeownership costs to go up 
dramatically, yet wages have not kept pace, making housing less 
affordable for many working families.
     Only 131 of the single-family homes currently for sale in my own 
State of Rhode Island are considered affordable by our State housing 
finance agency--meaning a family earning $47,280 or 80 percent of our 
State's median family income can afford them. This represents only 5.5 
percent of the homes on the market. Rhode Island's homeownership rate 
fell for the second year in a row to just 59.6 percent in 2002. This is 
8.3 percentage points below the 2002 national homeownership rate of 
67.9 percent. Not surprisingly, the number of apartments working 
families can afford to rent in my State has also declined 
significantly. Only one in every two renter households in Rhode Island 
is able to afford the standard rent for a two-bedroom apartment.
     Rhode Island is not an anomaly. For the fifth year in a row, the 
National Low Income Housing Coalition, in its ``Out of Reach'' report 
shows that there is no place in the United States, urban or rural, 
where the minimum wage is enough to afford the standard rent for a two-
bedroom apartment.
     Working hard and playing by the rules is increasingly not enough 
to afford housing for many families.
     We also have seen an increase in homelessness during the past 
several years. According to the latest U.S. Conference of Mayors (USCM) 
Report on Homelessness, homelessness has increased nationwide. The 
report states that ``requests for emergency shelter assistance 
increased by an average of 13 percent.'' As USCM President and 
Hempstead, New York Mayor James A. Garner said in the press release 
announcing the report: ``This survey underscores the impact the economy 
has had on everyday Americans. The face of homelessness has changed and 
now reflects who we least suspect.'' Working families and children are 
a part of the changing face of homelessness.
     Although I appreciate and support the Administration's commitment 
to ending chronic homelessness in 10 years and proposals like the 
Samaritan Initiative, the Administration's budget does not contain 
adequate resources for the 150,000 housing units needed each year for 
the next 10 years to end chronic homelessness, let alone the budget 
resources to renew the rent subsidies of those disabled homeless people 
who used to be chronically homeless. Nonetheless, if you are confirmed 
as Secretary of HUD, I hope that we can work together to adequately 
fund these commitments, in addition to reauthorizing the housing titles 
of the McKinney-Vento Act.
     Even if all the HUD voucher programs are adequately funded, they 
are of little use if there is no housing to use them on. As I mentioned 
to you when we met a few weeks ago, I believe that the Federal 
Government can and should do more to incentivize the private market to 
build mixed-income housing for working families. I plan on introducing 
a bill shortly that I think will help remedy this problem.
     I must also express my disappointment in the Administration's $35 
million cut to the HUD Office of Lead Hazard Control. Despite Congress' 
bipartisan commitment to increase funding for this program so that we 
can eliminate childhood lead poisoning in our nation's housing stock, 
the Administration continues to ask for substantially less money than 
Congress has appropriated.
     Finally, if you are confirmed, you will also be responsible for 
continuing improvements in HUD's management and operations. HUD has 
made modest progress during the past several years, yet as GAO's latest 
management report reflects, two significant HUD programs still remain 
on the high risk list. This report also cites serious management 
deficiencies, especially in human capital management. I hope that, if 
you are confirmed, you will promptly fix these management deficiencies.
     I look forward to the testimony of all of our nominees today.
                               ----------

              PREPARED STATEMENT OF SENATOR JON S. CORZINE

    Thank you, Mr. Chairman.
     I had the pleasure of meeting with Acting Secretary Jackson just a 
couple of weeks ago. There is no doubt in my mind that he clearly 
possesses the credentials and expertise necessary to lead the 
Department of Housing and Urban Development.
     His long tenure at the Housing Authority of Dallas and his work as 
Deputy Secretary of HUD are only two examples of his qualifications for 
this job.
     Mr. Chairman, I am concerned, however, the Mr. Jackson has, 
alongside Former Secretary Martinez, presided over some of the largest 
cuts to our Nation's housing programs.
     This includes elimination of the Public Housing Drug Elimination 
Program (PHDEP), proposals to eliminate the HOPE VI and the Empowerment 
Zones program, and significant reductions in the public housing 
operating fund and capital fund. And, now, HUD and the President have a 
proposal on the table that grossly underfunds the Section 8 program, 
one of the most critical low-income housing programs in this country, 
by $1.6 billion.
     The Administration has justified these cuts to the Section 8 
program by arguing that, as it is structured currently, the program is 
underutilized.
     The truth is, however, that according to HUD's own data and CBO's 
data, almost 97 percent of Section 8 vouchers are likely to be used in 
fiscal year 2004.
     A 97 percent utilization rate is very high, particularly given the 
fact that you have so many people moving in and out of the program.
     The Center on Budget and Policy Priorities has estimated that in 
the next 5 years New Jersey alone 25,000 families would lose their 
vouchers under this proposal.
     This is a raw deal for New Jersey and a raw deal for the country's 
low-income working families, too many of whom struggle to find an 
affordable place to live.
     Mr. Chairman, Mr. Jackson has told me that he is committed to 
preserving HUD's commitment to affordable housing and community 
development. And, while I think he is committed to this mission, he 
should know that this Senator plans to hold his feet to the fire.

                               ----------

               PREPARED STATEMENT OF LINDA MYSLIWY CONLIN
                  Member-Designate, Board of Director
                Export-Import Bank of the United States
                           February 26, 2004

    Mr. Chairman, Senator Sarbanes, distinguished Members of the 
Committee, it is an honor and a privilege to appear before you today as 
the President's nominee to become a Director at the Export-Import Bank 
of the United States.
    I appreciate the confidence that President Bush has placed in me 
and am deeply grateful to the President for giving me another 
opportunity to serve my country. If confirmed, I look forward to 
working with the Members and staff of this Committee.
    I would like to recognize my husband, Joe, and my 87-year-old 
mother, Helen Mysliwy, who are both here with me today. I would also 
like to recognize my colleagues from the Department of Commerce and the 
fine team from the Ex-Im Bank who have provided me with enormous 
support.
    I know the Committee has my biographical information, so I will not 
go into the details of my qualifications but ask that they be submitted 
with this oral statement.
    Two years and 7 months to the day, I had the honor of appearing 
before the Members of this Committee to ask for your consideration of 
my nomination to serve as Assistant Secretary of Commerce for Trade 
Development. My commitment today remains the same as it was then: If 
confirmed, to help American exporters and workers succeed in an 
increasingly competitive global economy. Exports of goods and services 
in this country support more than 12 million jobs, good jobs, paying as 
much as 18 percent more than the average.
    I am, however, mindful of what Secretary of Commerce Don Evans, 
whom I have been very proud to serve, often says, ``that governments do 
not create wealth and prosperity: People do. It is government's role to 
create the right conditions in which America's workers and businesses 
will flourish.''
    Creating the right conditions to grow export-related jobs means 
providing exporters with tools to compete in today's global 
marketplace. During my 19 years in Federal and State Government, I have 
helped companies, both large and small, gain access to world markets by 
providing the support to reach those markets.
    In trade development, I work alongside a group of over 370 
dedicated professionals, including trade and industry specialists whose 
mission is to help strengthen the export competitiveness of diverse 
sectors of the U.S. economy, from traditional manufacturing to 
information technologies and service exports. These specialists provide 
data and analysis critical to the development and monitoring of the 
impact of our trade agreements, ensure that industry perspectives are 
taken into consideration in trade negotiations through an advisory 
committee system, and offer general export assistance as well as 
advocacy for companies competing for large foreign government tenders.
    Representing Secretary Evans as an ex officio member of Ex-Im 
Bank's Board of Directors, I also have come to appreciate the critical 
role that access to export and project financing plays in enabling our 
companies to compete.
    I know that today's small and medium-sized businesses represent 97 
percent of all exporters, yet generate 30 percent of this country's 
exports. Two-thirds of these companies export to just one market. I am 
pleased to see that the Ex-Im Bank has placed a priority on cooperation 
among the 19-members of the Trade Promotion Coordinating Committee to 
leverage Federal resources in reaching this important community of 
potential exporters.
    If confirmed, I look forward to helping Chairman Merrill implement 
his broad vision in providing competitive products to the new 
knowledge-based service economy as well as traditional industries.
    I look forward to working with Committee Members, Chairman Merrill, 
Vice Chair Foley, Directors Grandmaison and Cleland, the career 
professionals at the Ex-Im Bank, the Administration's trade team and 
the exporting community in meeting this challenge.
    Mr. Chairman, Senator Sarbanes, Members of the Committee, I 
respectfully ask for your favorable consideration of my nomination and 
will be pleased to respond to your questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
